          Office of Inspector General




December 21, 2005


THOMAS G. DAY
SENIOR VICE PRESIDENT, GOVERNMENT RELATIONS

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT: Audit Report – Area Mail Processing Guidelines
         (Report Number NO-AR-06-001)


This report presents the results of our audit of the Area Mail Processing (AMP)
Guidelines (Project Number 05WG015NO000). This review was self-initiated and is
part of an ongoing series of audits of the Evolutionary Network Development (END)
project. Our objective was to assess the Postal Service’s AMP Guidelines for
consolidating mail operations.

The AMP process is fundamentally sound and appears credible. It also provides a
post-implementation review to assess results from mail processing consolidations.
However, management of the AMP process and guidance could be improved. Without
clear guidance, the ability to implement AMPs with minimal disruption is impacted, and
inconsistencies in the process may result. We recommended the Postal Service
develop a process for addressing resistance to network changes, ensure AMPs are
approved or disapproved in a timely manner, ensure post-implementation reviews are
conducted, and update AMP Guidelines or supporting policies.

Management generally agreed with our recommendations and has initiatives in
progress, completed, or planned addressing the issues in this report. Management’s
comments and our evaluation of these comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
Director, Network Operations – Processing, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    David E. Williams
    Steven R. Phelps
Area Mail Processing Guidelines                               NO-AR-06-001




                                  TABLE OF CONTENTS

 Executive Summary                                             i

 Part I

 Introduction                                                  1

     Background                                                1
     Objective, Scope, and Methodology                         2
     Prior Audit Coverage                                      3

 Part II

 Audit Results                                                 4

     Assessment of AMP Process                                 4

     Limited Use of AMP Process                                5
        Postal Service’s Planned Actions                       7
     Recommendations                                           7
     Management’s Comments                                     7
     Evaluation of Management’s Comments                       7

     Policy Could Be Improved                                  8
        Postal Service Actions                                 9
     Recommendation                                            9
     Management’s Comments                                     9
     Evaluation of Management’s Comments                       9

     Lessons Learned From Marina/Los Angeles Processing and   10
        Distribution Center AMP Consolidation

 Appendix A. Sample Timeline for Completion of an AMP         12

 Appendix B. Prior Audit Coverage                             13

 Appendix C. Flowchart of the AMP Process                     14

 Appendix D. Management’s Comments                            15
Area Mail Processing Guidelines                                                                   NO-AR-06-001



                                     EXECUTIVE SUMMARY
    Introduction                  We conducted a self-initiated review of the Postal Service’s
                                  Area Mail Processing (AMP) Guidelines. Our objective was
                                  to assess the AMP Guidelines for consolidating mail
                                  processing operations.

    Results in Brief              The AMP process is fundamentally sound, appears
                                  credible,1 and provides a post-implementation review
                                  process to assess results from mail processing
                                  consolidations. However, management of the AMP process
                                  and guidance could be improved. We concluded:

                                      •    Network changes using the AMP process have been
                                           few and minor compared to the network’s size.2

                                      •    AMPs were not processed or approved at
                                           headquarters within the 30-day requirement.

                                      •    Post-implementation reviews were not always
                                           conducted.

                                      •    AMP guidance did not address how excess capacity
                                           is impacted.

                                      •    AMP communications and the process for addressing
                                           resistance could be improved.

                                  These conditions occurred because stakeholder resistance
                                  and the development of the Evolutionary Network
                                  Development models affected the approval and
                                  implementation of AMPs. In addition, some detailed
                                  procedures for addressing AMP issues were not contained
                                  or referenced in AMP policy, and the Postal Service has not
                                  updated the AMP Guidelines since 1995.

                                  Consequently, limited use of AMPs to change the network
                                  has prolonged plant inefficiencies and excess capacity,
                                  resulting in higher than necessary network costs. Without
                                  clear guidance, the ability to implement AMPs with minimal


1
  Two prior Office of Inspector General reviews showed a favorable business case to support pending AMP proposals
in Mansfield, Ohio, and Canton, Ohio.
2
  During fiscal years 2000-2004, the Postal Service reduced over 187 million workhours; however, the AMP process
accounted for less than 1 percent of the total workhour reduction.



                                                        i
Area Mail Processing Guidelines                                                      NO-AR-06-001




                                  disruption is impacted, and inconsistencies in the process
                                  may result.

 Postal Service Actions           During our review, Postal Service management stated they
                                  plan to increase the use of AMPs in the future. They have
                                  conducted training sessions on the process and are
                                  developing tools to improve management of AMPs. In
                                  addition, they are creating an AMP communications plan to
                                  target key messages to internal and external audiences.
                                  Finally, they have documented lessons learned from closing
                                  the Marina Processing and Distribution Center to facilitate
                                  facility closures in future AMP projects.

 Summary of                       We recommended the Postal Service ensure compliance
 Recommendations                  with policy requirements, develop a process for addressing
                                  stakeholder resistance, and update the AMP guidance.

 Summary of                       Management generally agreed with the findings and
 Management’s                     recommendations in this report. Management’s comments,
 Comments                         in their entirety, are included in Appendix D of this report.

 Overall Evaluation of            Management’s actions taken or planned are responsive to
 Management’s                     the recommendations and should correct the issues
 Comments                         identified in the findings.




                                                   ii
Area Mail Processing Guidelines                                                                      NO-AR-06-001



                                             INTRODUCTION
    Background                     Declines in First-Class Mail volume,3 increased competition
                                   from the private sector against traditional mail products,
                                   increased automation and mail processing by mailers, and
                                   shifts in population demographics have resulted in excess
                                   capacity in the Postal Service’s mail processing
                                   infrastructure. These factors, coupled with an aging
                                   processing infrastructure and network redundancies, make
                                   operating efficiently difficult. Postal Service management
                                   has recognized the need for a comprehensive redesign of
                                   its distribution and transportation network.

                                   As part of the Postal Service’s Strategic Transformation
                                   Plan 2006-2010, the Postal Service articulated an
                                   Evolutionary Network Development (END) initiative to
                                   improve its processing and transportation network.4 END is
                                   a set of processes and tools used to analyze the optimal
                                   number, location, and functions of mail processing and
                                   transportation facilities. The charter of the initiative is to
                                   create a flexible logistics network that reduces Postal
                                   Service and customers’ costs, increases operational
                                   effectiveness, and improves consistency of service.

                                   In 2003, the President’s Commission on the Postal Service
                                   (the Commission) found the Postal Service had more
                                   facilities than it needed and many of these were not used
                                   efficiently. The Commission said these inefficient
                                   operations and an antiquated network cost the Postal
                                   Service billions of dollars in unnecessary expenses. The
                                   Commission also noted that the Postal Service faced
                                   political resistance to closing or consolidating postal
                                   facilities, along with restrictive statutory requirements.

                                   The Postal Service uses Area Mail Processing (AMP) policy
                                   to consolidate mail processing functions and to eliminate
                                   excess capacity, increase efficiency, and better use
                                   resources. The Postal Service defines AMP as the
                                   consolidation of all originating and/or destinating distribution
                                   operations from one or more post offices into another
                                   automated or mechanized facility to improve operational
                                   efficiency and/or service. This process has been refined
3
 In fiscal year (FY) 2004, First-Class Mail volume was 5.7 billion pieces below the peak volume in FY 2001.
4
 The Postal Service has referred to its network redesign as Network Integration and Alignment, Network
Rationalization, and END. For consistency, we use END throughout this report.



                                                         1
Area Mail Processing Guidelines                                                                  NO-AR-06-001



                                   over 3 decades as mail processing has evolved from a
                                   manual and mechanized to automated processing.

                                   The Postal Service issued Handbook PO-408, Area Mail
                                   Processing (AMP) Guidelines, in 1984 and reissued it in
                                   April 1995. The guidelines ensure AMP consolidations
                                   support the strategic objectives of the Postal Service, make
                                   optimum use of available resources, and establish
                                   management’s accountability for the AMP decision. In
                                   September 2004, the Postal Service distributed updates to
                                   the AMP worksheets. See Appendix A for a sample timeline
                                   for completing an AMP.

    Objective, Scope, and          The objective of this review was to assess the Postal
    Methodology                    Service’s AMP Guidelines for consolidating mail processing
                                   operations.

                                   The audit covered program operations at Postal Service
                                   Headquarters, area offices, and sites with ongoing AMP
                                   projects. We reviewed current and prior AMP guidance and
                                   AMP proposals submitted to Postal Service Headquarters
                                   from 1995 through May 2005. We interviewed Postal
                                   Service managers and employees at various levels to learn
                                   about the AMP program. We reviewed handbooks,
                                   instructions, and other documentation, as well as prior audit
                                   reports on AMP. We toured the Marina del Rey and Los
                                   Angeles Processing and Distribution Centers (P&DCs) that
                                   were being consolidated at the time of our visit. We
                                   performed analytical procedures as necessary.

                                   We conducted this audit from March through
                                   December 2005 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as we considered necessary under the
                                   circumstances. We could not account for all AMP studies
                                   for the period of review.5 We discussed our observations
                                   and conclusions with management officials and included
                                   their comments where appropriate.




5
    In November 2004, Postal Service management improved oversight and controls over the AMP process.



                                                        2
Area Mail Processing Guidelines                                                     NO-AR-06-001




 Prior Audit Coverage             We issued two prior reports on the efficiency of mail
                                  processing operations at the Main Post Office in Mansfield,
                                  Ohio, and the Canton, Ohio, P&DC. These reviews
                                  included our assessment of pending AMPs. In addition, the
                                  Government Accountability Office (GAO) reviewed the
                                  Postal Service’s mail processing infrastructure. For details
                                  of prior audit coverage, see Appendix B.




                                                  3
Area Mail Processing Guidelines                                                                  NO-AR-06-001



                                          AUDIT RESULTS
    Assessment of AMP             The AMP process is fundamentally sound, appears credible,
    Process                       and provides a post-implementation review process to
                                  assess the results of mail processing consolidations.

    Methodology Sound             AMP uses a bottom-up approach to develop network
                                  consolidations based on evaluation of mail processing
                                  functions for specific facilities. The process begins at the
                                  local level, with the facilities involved in the consolidation
                                  preparing a study to analyze the feasibility of relocating mail
                                  processing operations from one location to another. If the
                                  study shows the consolidation will improve efficiency and/or
                                  service, local management prepares an AMP proposal.
                                  Area and headquarters management then review the AMP
                                  proposals to ensure they conform to AMP Guidelines. See
                                  Appendix C for a flowchart of the AMP process.

    Standardized                  The AMP Guidelines clearly identify the factors that should
    Worksheets                    be analyzed in an AMP proposal and provide standardized
                                  worksheets to collect pertinent data. These worksheets
                                  show how savings are calculated, the impact on service, and
                                  transportation costs. We previously conducted two reviews
                                  of pending AMPs and found favorable business cases to
                                  support the proposed consolidations.6

    Review Process                The AMP Guidelines include a process for evaluating and
                                  measuring the results of AMP decisions.7 The review
                                  process ensures management’s accountability for
                                  implementing an AMP and compares projected and actual
                                  results. All AMP plans should be reviewed twice during the
                                  first year after implementation to assess whether planned
                                  savings, workhours, and levels of service are attained. In
                                  addition, if an AMP does not work, there are provisions for
                                  reversing the action.




6
  Two Office of Inspector General (OIG) reviews showed favorable business cases to support pending AMP
proposals in Mansfield, Ohio, and Canton, Ohio.
7
  In a future audit, the OIG plans to review the results achieved from implemented AMPs.



                                                       4
Area Mail Processing Guidelines                                                                                                                               NO-AR-06-001




    Limited Use of AMP                During FYs 2000-2004, the Postal Service reduced over
    Process                           187 million workhours and continues to reduce workhours.
                                      The Postal Service has also eliminated more than
                                      80,000 career positions and closed more than 80 facilities,
                                      including remote encoding centers and annexes. However,
                                      in consolidating mail processing operations, the Postal
                                      Service has not fully used the AMP process. AMPs resulted
                                      in less than 1 percent of the total workhour reductions for
                                      that period. Changes to the mail processing network have
                                      been relatively few and minor compared to the network’s
                                      size.

                                           •                     Since 1995, the Postal Service has implemented
                                                                 28 AMP proposals to consolidate mail operations.
                                                                 This averages less than three implemented AMPs per
                                                                 year. The chart below summarizes AMPs submitted,
                                                                 approved, and implemented in each area since 1995.

                                                                                                  Chart 1. AMPs Submitted, Approved, and Implemented
                                                                                                                1995-2005

                                                                18


                                                                16


                                                                14


                                                                12
                                               Number of AMPs




                                                                10                                                                                                      Submitted
                                                                                                                                                                        Approved
                                                                                                                                                                        Implemented
                                                                8


                                                                6


                                                                4


                                                                2


                                                                0
                                                                     Northeast   New York   Capital   Southeast   Eastern   Great Lakes Southwest   Western   Pacific
                                                                                  Metro     Metro
                                                                                                                  Areas




                                           •                     In 2004, the Postal Service initiated a major AMP.8
                                                                 This involved moving mail processing operations from
                                                                 the Marina del Rey Processing and Distribution
                                                                 Center (Marina P&DC) to the Los Angeles and Long
                                                                 Beach P&DCs. The Postal Service will close the
                                                                 Marina P&DC.


8
    A major AMP consists of a facility with more than 400 employees and results in a facility closure.



                                                                                        5
Area Mail Processing Guidelines                                                                      NO-AR-06-001



                                  The Commission found the Postal Service has more
                                  infrastructure than needed and should accelerate plans to
                                  reduce the excess capacity. Handbook PO-408 establishes
                                  the Postal Service criteria for processing, approving, and
                                  implementing AMPs.

                                  We reviewed AMPs submitted from FYs 2001 through 2005
                                  and found that headquarters did not process or approve
                                  AMPs within the 30-day requirement.9 We identified 18
                                  AMPs submitted between 2001 and 2005 that had not been
                                  acted upon at the time of our review.

                                  Further, post-implementation reviews (PIRs) were not
                                  always conducted for completed AMPs. PIR documentation
                                  was available for only 5 of the 28 implemented AMPs since
                                  1995. Of those five, only three included both an interim and
                                  full-year PIR.10 These reviews are conducted to ensure the
                                  AMP has achieved the projected savings, improved
                                  operational efficiency, and established management
                                  accountability for decision-making.

                                  These conditions occurred for several reasons.

                                       •   Developing END models to analyze network
                                           alternatives slowed the processing of AMP proposals
                                           because the Postal Service delayed action pending
                                           the modeling results.

                                       •   Resistance to consolidations affected the approval
                                           and implementation of AMP proposals. For example,
                                           the proposed AMP to move mail processing
                                           operations from Pendleton, Oregon, to Pasco,
                                           Washington, was terminated after a member of
                                           Congress made inquiries. The Postal Service also
                                           postponed the proposed AMP to move outgoing mail
                                           processing operations from Mansfield, Ohio, to Akron,
                                           Ohio, because of congressional opposition.

                                  Limited use of AMPs to make changes to the mail
                                  processing network has prolonged plant inefficiencies and
                                  excess capacity. This has resulted in higher than necessary

9
  Handbook PO-408, Chapter 3, states that both the area and headquarters have up to 30 days to approve a
submitted AMP proposal.
10
   Handbook PO-408, Chapter 5, states that PIRs are to be conducted within 30 days after the second full quarter
following implementation of the AMP, and again after the first full year following implementation.



                                                         6
Area Mail Processing Guidelines                                                     NO-AR-06-001



                                  network costs. Also, without PIRs, management has no
                                  assurance the implemented AMPs achieved projected
                                  results.

 Postal Service’s                 During the review, the Postal Service stated they plan to
 Planned Actions                  implement at least ten AMPs in the near future. The Postal
                                  Service conducted training sessions on the AMP process
                                  during March and April 2005. In addition, the Postal Service
                                  is developing tools to improve management of AMPs.

 Recommendations                  We recommend the vice president, Network Operations
                                  Management, in coordination with the senior vice president,
                                  Government Relations:

                                     1. Develop a process for addressing resistance to mail
                                        processing consolidations and facility closures.

                                  We recommend the vice president, Network Operations
                                  Management:

                                     2. Process and approve or disapprove Area Mail
                                        Processing proposals in a timely manner.

                                     3. Ensure post-implementation reviews are conducted
                                        according to established guidance.

 Management’s                     Management agreed with the recommendations. A cross-
 Comments                         functional team developed an AMP Communications Plan to
                                  improve communications with stakeholders. In addition, the
                                  Processing Operations Group implemented an AMP tracking
                                  system to improve oversight and management of AMP
                                  proposals, including the approval and post-implementation
                                  review processes.

 Evaluation of                    Management’s comments are responsive to the
 Management’s                     recommendations and actions taken or planned should
 Comments                         address the issues identified in the finding.




                                                   7
Area Mail Processing Guidelines                                                                         NO-AR-06-001




 Policy Could Be                    The Postal Service’s AMP Guidelines were incomplete, and
 Improved                           some detailed procedures for addressing AMP issues were
                                    not contained or referenced in AMP policy. The AMP
                                    process has been refined over the last 3 decades as mail
                                    processing has evolved from a manual and mechanized
                                    process into an automated process. With the passage of
                                    time, some procedures outlined in the guidelines have
                                    become outdated or require additional guidance. For
                                    example, guidance did not:

                                        •    Discuss how to address resistance that may be
                                             encountered when completing an AMP study or
                                             implementing an AMP proposal. This resistance
                                             includes unions, affected communities, and other
                                             stakeholders.

                                        •    Adequately address what should be communicated
                                             with stakeholders, by whom, when, or how.

                                        •    Fully address the criteria that are used to evaluate
                                             proposals and how the proposals are implemented.11

                                        •    Address the use of excess capacity in the losing
                                             facility after the processing operations have been
                                             removed.

                                        •    Address the process for closing a facility and
                                             managing excess equipment after the processing
                                             operations have been moved.

                                    These conditions occurred because the AMP Guidelines
                                    have not been updated since 1995. Postal Service
                                    management was hesitant to make changes to the
                                    guidelines because they indicated they would be required to
                                    coordinate revisions with the unions.

                                    Without clear guidance, the ability to implement AMPs with
                                    minimal disruption is affected and may cause
                                    inconsistencies in using the process. Further, without
                                    specific guidance, delays in the disposition of facilities and
                                    equipment could occur.

11
  GAO report: The Service’s Strategy for Realigning Its Mail Processing Infrastructure Lacks Clarity, Criteria, and
Accountability (Report Number GAO-05-261, dated April 2005).



                                                           8
Area Mail Processing Guidelines                                                      NO-AR-06-001




 Postal Service Actions           During our review, Postal Service management stated they
                                  were creating an AMP communications plan to target key
                                  messages on consolidations and closures to internal and
                                  external audiences.

 Recommendation                   We recommend the vice president, Network Operations
                                  Management:

                                     4. Update Area Mail Processing Guidelines or
                                        supporting policies to address:

                                        •   What should be communicated with stakeholders,
                                            by whom, when, and how.

                                        •   The criteria used by Postal Service Headquarters
                                            to evaluate the AMP proposals.

                                        •   The use of excess capacity at the losing facility
                                            after the consolidation.

                                        •   The process for closing a facility and managing
                                            excess equipment.

 Management’s                     Management agreed with the recommendations. The AMP
 Comments                         Communication Plan provides guidance on communicating
                                  with stakeholders. Management stated the factors in the
                                  AMP worksheets provide the criteria to evaluate AMP
                                  proposals. In addition, management has developed an
                                  AMP proposal worksheet that evaluates the intended use of
                                  excess capacity at the consolidated facility. Finally,
                                  management referenced policies for managing facilities and
                                  excess equipment.

 Evaluation of                    Management’s comments are generally responsive to the
 Management’s                     recommendations and actions taken or planned should
 Comments                         address the issues identified in the finding.




                                                  9
Area Mail Processing Guidelines                                                                   NO-AR-06-001




 Lessons Learned                  At the time of our review, the consolidation of the Marina
 from Marina/Los                  P&DC with the Los Angeles and Long Beach P&DCs12 was
 Angeles P&DC AMP                 progressing well, with few problems. Best practices were
 Consolidation                    documented and included:

                                      •    Three separate, dedicated teams managed the AMP
                                           implementation.

                                               o The Pacific Area created an area
                                                 cross-functional team to oversee the
                                                 consolidation. The team included a leader
                                                 with experience in consolidations and
                                                 members from Human Resources,
                                                 Maintenance, Operations, In-Plant Support,
                                                 Facilities, Transportation, and Retail.

                                               o A Marina P&DC team and a Los Angeles
                                                 P&DC team were formed from each plant and
                                                 oversaw actions at their respective facilities.

                                      •    The teams used Microsoft project management
                                           software adapted for the consolidation. A project
                                           management program with 400 tasks was expanded
                                           to approximately 1,200 tasks to cover all aspects of
                                           the project. Using this software allowed constant
                                           monitoring of consolidation progress.




                                    Photograph 1. Marina P&DC



12
   The Marina P&DC AMP was the pilot project for implementing a major AMP, which will reduce excess capacity in
the infrastructure. The Postal Service transferred the bulk of the mail from the Marina P&DC to the Los Angeles
P&DC for processing. The Los Angeles P&DC had excess processing capacity and also absorbed equipment from
the Marina P&DC.



                                                       10
Area Mail Processing Guidelines                                                    NO-AR-06-001



                                  The AMP teams also used lessons learned from previous
                                  consolidations. These included:

                                     •   Focusing on capturing savings and maintaining
                                         service.

                                     •   Developing proposed employee schedules early in
                                         the process.

                                     •   Using Microsoft project management software.

                                     •   Creating visual aids.

                                     •   Frequent meetings to facilitate communication.

                                  As an example, the teams provided visual aids to show
                                  employees and other stakeholders the layout of the
                                  Los Angeles P&DC.




                                  Photograph 2. Layout of Los Angeles P&DC

                                  Postal Service management plans to share lessons learned
                                  at the Marina P&DC with other areas to facilitate
                                  consolidations and closures in future AMP projects.



                                                  11
Area Mail Processing Guidelines                                                             NO-AR-06-001




                       APPENDIX A. SAMPLE TIMELINE FOR COMPLETION OF AN AMP




                    Complete AMP
                    Study
                    (0–6 Months)                                            HQ Approves
                                                                            or
                                                             Area Sends     Disapproves                            HQ Evaluates
                                        Area                 Study to HQ    AMP                                    Semiannual
  Pre-                                  Conducts             for Review                           Conduct          and Annual
  Implementation                        Review of                                                 6-Month PIR      PIRs
  Review                                Proposal                                                  (30 Days)        (30 Days
  (0-60 Days)                           (30 Days)                                                                  Each)




  7/1/05 9/1/05             3/2/06    4/4/06        5/6/06 5/7/06                                      11/7/07           5/7/08   6/7/08



      Decision to         Decision                                           Implement
      Study and           Submitted to                       HQ Reviews      AMP                                 Conduct
      Quantify            Area                               AMP Proposal    (0-365 Days)                        Annual PIR
      Impacts of          Recommending                       (30 Days)                                           (30 Days)
      Action on           Implementation
      Operating           or Cancellation
      Environment         of the Study
      (1 Day)                                       Decision by Area
                                                    Approving
                                                    Implementation
                                                    of Study (1 Day)




                                                                            12
Area Mail Processing Guidelines                                             NO-AR-06-001




                     APPENDIX B. PRIOR AUDIT COVERAGE

OIG, Efficiency Review of the Mansfield, Ohio, Main Post Office (Report Number
NO-AR-05-004, December 8, 2004), found the Postal Service could increase
operational efficiency at the Mansfield Main Post Office (MPO) by reducing 24,000 mail
processing workhours, which would allow the Mansfield MPO to achieve 90 percent of
targeted goals. This reduction is based on the assumption that mail volume will not
significantly change from FY 2003 levels and could produce a cost avoidance of
approximately $7.6 million based on a labor savings over 10 years. We recommended
the manager, Northern Ohio District, reduce mail processing operations at the Mansfield
MPO by 52,000 workhours based on FY 2003 workhour usage. We also recommended
consolidating outgoing mail operations into the Akron P&DC, as the Eastern Area AMP
study recommended. Management agreed, and the actions planned were responsive to
the issues identified.

OIG, Efficiency Review of the Canton, Ohio, Processing and Distribution Facility (Report
Number NO-AR-05-013, September 22, 2005), found the Postal Service could increase
operational efficiency at the Canton Processing and Distribution Facility (P&DF) by
reducing 202,000 mail processing workhours. This reduction is based on the
assumption that mail volume will not significantly change from FY 2004 levels and could
produce a cost avoidance of approximately $64 million based on a labor savings over
10 years. We recommended the manager, Northern Ohio District, reduce mail
processing operations at the Canton P&DF by 93,000 workhours based on FY 2004
workhour usage. We also recommended consolidating outgoing mail operations into
the Akron P&DC, thereby saving an additional 109,000 workhours. Management
agreed, and the actions planned were responsive to the issues identified.

GAO, U.S. Postal Service: The Service’s Strategy for Realigning Its Mail Processing
Infrastructure Lacks Clarity, Criteria, and Accountability (Report Number GAO-05-261,
April 2005), found that with declining mail volumes, increasing compensation costs, and
a more competitive marketplace, the Postal Service’s need to increase efficiency and
reduce expenses is an increasing concern. The Postal Service has said it can become
more efficient in its mail processing and distribution infrastructure. The GAO
recommended the Postal Service establish criteria for evaluating realignment decisions
and a mechanism for informing stakeholders about decisions. The GAO also
recommended the Postal Service develop a process for implementing those decisions
that includes evaluating and measuring the results, as well as the actual costs and
savings resulting from the decisions. The Postal Service responded that they are
making great strides in both service improvement and cost control. AMP is one of the
tools they are using to implement the goals of END.




                                           13
Area Mail Processing Guidelines                           NO-AR-06-001




            APPENDIX C. FLOWCHART OF THE AMP PROCESS




                                                        Legend
                                              DM – District Manager
                                              SPM –Senior Plant Manager
                                              AVP – Area Vice President
                                              VP NOM – Vice President
                                              Network Operations
                                              Management
                                              SVP – Senior Vice President
                                              HQ – Headquarters




                                  14
Area Mail Processing Guidelines                           NO-AR-06-001



                      APPENDIX D. MANAGEMENT’S COMMENTS




                                   15
Area Mail Processing Guidelines        NO-AR-06-001




                                  16
Area Mail Processing Guidelines        NO-AR-06-001




                                  17
